     Department of Homeland Security




     FEMA Should Recover $131,064 From a $3.0 Million
          Public Assistance Grant Awarded to the
       City of Norfolk, Virginia, for Tropical Storm Ida
                        and a Nor’easter




DA-13-11                                         March 2013

                                      OFFICE OF INSPECTOR GENERAL
                                       Department of Home la nd Security



                                               MAR 1 2 2013

MEMORANDUM FOR:                    Mary Ann Tierney
                                   Regional Admini~trator, Region III
                                   Federal Emer~/;!hent Agency

FROM.                              D. Michae l Bea,        ~.,r--
                                   A~,i'tant Ins p  r General
                                   Office of Emergency Management Oversight

SUBJECT:                           FEMA Should Recover $131,064 From a $3.0 Million Public
                                   A55istance Grant Awarded to the City of Norfolk, Virginia, for
                                   Tropical Storm Ido and 0 Noreaster
                                   FEMA Disaster Number DR· 1862
                                   Audit Report Number DA·13·11

We audited Publ ic Assi~tance grant fu nds awa rded to th e City of Norfolk, Virgi nia (City) (FIPS
Code 710.57000.(0). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Managem~nt Agency (FEMA) grant funds according to Federal
regulat ions and FEMA guidelines.

The City received a Public A~,i'tance award lotaling $3.0 million from the Virginia Divi~ion of
Emergency Management (State), a FEMA grantee, for damage., resu~ing from Tropical Storm
Ida and a Nor'easter, which occurred in November 2009. The award provided 75 percent FEMA
funding for debris removal, emergency protective measures, and permanent repairs to
buildings and other faci l ~ies. The award comisted of 12 large projects a nd 71 small projects.'

We audited five large projects and one small project with aWJrds totaling $1.2 million (see
Exhibit, Schedule of Projects Audited). The audit covered the period November 11, 2009, to
September 27, 2012, during which the City claimed $1.1 million of FEMA funding under th~
projects reviewe d. At the time of our audit, the City had comp leted work un der all large
projects included in our scope, bLJI had not submitted ~ final cla im of expenditures to the State
for ~ II projects.

We conducted this performance audit between July 2012 and February 2013 pursuant to the
Inspector General Act of 1978 as amended, and according to ge nerally accepted government
auditin g standards. Those standards requi re that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and condusion~

1   Federal regulations in effect at the time oftne di,aster set th~ large project threshold at $63,200
                                  OFFICE OF INSPECTOR GENERAL

                                   Department of Homeland Security 


   based upon our audit objective. We believe that the evidence obtained provides a reasonable
   basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
   applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
   disaster.

   We judgmentally selected project costs (generally based on dollar value) interviewed City,
   State, and FEMA officials; reviewed the City’s procurement policies and procedures; reviewed
   applicable Federal regulations and FEMA guidelines; and performed other procedures considered
   necessary to accomplish our audit objectives. We did not assess the adequacy of the City’s
   internal controls applicable to its grant activities because it was not necessary to accomplish
   our objective. However, we gained an understanding of the City’s method of accounting for
   disaster-related costs and its policies and procedures for administering the activities provided
   for under the FEMA award.


                                         RESULTS OF AUDIT

   FEMA should recover $131,064 of grant funds awarded to the City. Although the City generally
   accounted for FEMA funds according to Federal regulations and FEMA guidelines, its claim
   included $131,064 for contract work that did not fully comply with Federal procurement
   requirements.

   Under Project 136, the City used an electrical contractor to complete repairs to an underground
   electrical utility vault damaged by the disaster in November 2009. The repair work was
   performed under a contract that the City originally competed in 2006 and renewed yearly
   under an option to renew clause. The contractor completed the repairs in May 2012 for a cost
   of $123,386, which included $80,368 for materials. However, the contract included a cost-plus
   provision whereby the contractor charged materials at cost plus a markup of 34 percent.
   Federal regulations at 44 CFR 13.36(f)(4) states that the cost plus a percentage of cost and
   percentage of construction cost methods of contracting shall not be used. In addition, FEMA’s
   Public Assistance Guide (FEMA 322, June 2007, pp. 51–53) specifies that “cost plus a percentage
   of costs contracts are not eligible. However, FEMA may separately evaluate and reimburse
   costs it finds fair and reasonable.” FEMA may grant exceptions to Federal procurement
   requirements to subgrantees on a case-by-case basis (44 CFR 13.6(c)).

   We question the $131,064 because the City did not use a proper contracting method for the
   repair work and, therefore, FEMA has no assurance that the price paid for the contract work
   was reasonable.




www.oig.dhs.gov                               2                                   DA-13-11

                                   OFFICE OF INSPECTOR GENERAL

                                    Department of Homeland Security 


                                         RECOMMENDATION

   We recommend that the Regional Administrator, FEMA Region III:

   Recommendation #1: Disallow $131,064 (Federal share $98,298) of ineligible contract costs
   unless FEMA grants the City an exception for all or part of the costs as provided for in 44 CFR
   13.6(c) and Section 705(c) of the Robert T Stafford Disaster Relief and Emergency Assistance
   Act, as amended.


                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the audit results with the City, State, and FEMA officials during our audit. We
   also provided a written summary of our findings and recommendations in advance to these
   officials and discussed them at the exit conference held on February 12, 2013. City officials
   generally agreed with our findings.

   Within 90 days of the date of this memorandum, please provide our office with a written
   response that includes your (1) agreement or disagreement, (2) corrective action plan, and
   (3) target completion date for the recommendation. Also, please include responsible parties
   and any other supporting documentation necessary to inform us about the current status of the
   recommendation. Until we receive and evaluate your response, the recommendations are
   open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director; Felipe
   Pubillones, Audit Manager; and Carlos Aviles, Auditor-In-Charge.

   Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
   Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                3                                    DA-13-11

                             OFFICE OF INSPECTOR GENERAL

                              Department of Homeland Security 


                                                                                     Exhibit

                             Schedule of Projects Audited

                          November 11, 2009, to June 26, 2012 

                               City of Norfolk, Virginia 

                            FEMA Disaster No. 1862-DR-VA


     Project Category          Description         Amount         Amount   Questioned
     Number of Work             of Work            Awarded        Claimed    Costs
       129      B        Emergency Protective       $227,364      $227,364          0
                                Measures
       136        F              Utilities           131,064       131,064       $131,064
       225        E     Buildings and Equipment       21,849           534              0
       259        A          Debris Removal          163,588       160,714              0
       262        A          Debris Removal          509,875       501,899              0
       308        B      Emergency Protective        107,308       107,308              0
                                Measures
       Total                                      $1,161,048 $1,128,883          $131,064




www.oig.dhs.gov                         4                                    DA-13-11

                                  OFFICE OF INSPECTOR GENERAL

                                   Department of Homeland Security 


                                                                                 Appendix


                                       Report Distribution

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Acting Chief Privacy Officer
   Audit Liaison, DHS

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region III
   Audit Liaison, FEMA (Job Code G-12-055-EMO-FEMA)

   State
   Director, Virginia Division of Emergency Management
   State Auditor, Virginia

   Subgrantee
   Risk Manager, City of Norfolk, VA

   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform




www.oig.dhs.gov                              5                             DA-13-11

